MATERIAL DEFICIENCIES IDENTIFIED IN
EARL~DEFAULTEDANDEARL~PROBLEM
       RECOVERY ACT LOANS

          Report Number: ROM 10-19 

         Date Issued: September 24, 2010 





                  Prepared by the 

            Office of Inspector General 

       U. S. Small Business Administration 

             u.s. Small Business Administration
             Office of Inspector General                               Memorandum
     To: 	   Eric R. Zamikow                                                                      Date:     September 24,2010
             Associate Administrator for Capital Access
             lsi Original Signed
  From: 	    Debra S. Ritt 

             Assistant Inspector General for Auditing 


Subject: 	   Report on Material Deficiencies Identified in Early-Defaulted and Early-Problem
             Recovery Act Loans
             ROM 10-19

             This report presents the results of our audit of early-defaulted and early-problem
             7(a) loans disbursed pursuant to the American Recovery and Reinvestment Act of
             2009 (Recovery Act). Early-defaulted loans are those loans that default or are
             made to businesses that fail within 18 months of final disbursement. Early­
             problem loans are those loans that experience payment problems prior to final
             disbursement or within the first 18 months after final disbursement. l The
             Recovery Act provided the Small Business Administration (SBA) with $730
             million to expand the Agency's lending and investment programs and create new
             programs to stimulate lending to small businesses. Under the provisions of the
             Recovery Act, SBA temporarily eliminated the upfront guaranty fees and
             increased the maximum guaranty percentage to 90 percent for most 7(a) loans?

             The audit objectives were to determine (1) whether early-defaulted or early­
             problem 7(a) Recovery Act loans were originated and closed in accordance with
             SBA's rules and regulations and commercially prudent lending standards, and
             (2) if not, whether the noncompliance with SBA requirements or commercially
             prudent lending standards led to the loan problem, default, or unnecessary losses.

             To answer these objectives, we judgmentally selected 39 loans for review from the
             65 Recovery Act loans that had been purchased by SBA or placed in liquidation
             status by lenders as of December 31, 2009. Some of these loans defaulted within

             1   SBA defmes payment problems as a pattern of late or partial payments, payments funded through the sale of
                 collateral, or two or more deferments of consecutively scheduled payments. Loans that fund lines of credit are
                 considered (1) early-defaulted when they default or are made to businesses that fail, within 18 months of initial
                 disbursement, and (2) early-problem loans when they experience a pattern of late or partial payments, or when
                 monthly payments are funded through the sale of collateral, within 18 months of initial disbursement.
                 Under the Recovery Act, the maximum guaranty for SBAExpress loans remained at 50 percent.
                                                                                                                2


3 months of disbursement. See Appendix I for further details on our sampling
methodology and Appendix II for a list of the sampled loans.

We reviewed SBA and lender loan files and interviewed SBA and lender officials
as necessary. For all loans examined, we also reviewed information contained in
SBA's Loan Accounting System, Guaranty Purchase Tracking System, and the
Centralized Loan Chron System. We conducted our audit from January 2010 to
May 2010, in accordance with Government Auditing Standards prescribed by the
Comptroller General of the United States.

BACKGROUND

SBA is authorized under Section 7(a) of the Small Business Act to provide
financial assistance to small businesses in the form of Government-guaranteed
loans. SBA 7(a) loans are made by participating lenders under an agreement to
originate, service, and liquidate loans in accordance with SBA's rules and
regulations. SBA is released from liability on the guaranty, in whole or in part, if
the lender fails to comply materially with any of the provisions of the regulations
or the loan authorization; or does not make, close, service or liquidate the loan in a
prudent manner.

As of December 31,2009,27 RecovelY Act loans had been purchased by SBA and
38 others had been transferred to liquidation status by lenders, indicating early
loan default or early payment problems. These 65 loans were approved for nearly
$8.2 million and represent 0.2 percent of the 34,040 Recovery Act loans made. As
of June 30, 2010, there were a total of 484 early-defaulted or early-problem
Recovery Act loans approved for $69,205,600.

Previous Office of Inspector General (OIG) audits identified material lender
noncompliance in originating, closing, and servicing early-defaulted loans in
accordance with SBA requirements and prudent lending practices, which resulted
in an increased risk of loss to SBA. 3 Furthermore, a recent OIG audit of Recovery
Act loans also identified material origination and closing deficiencies. 4



3	   OIG Report 7-23, Audit of the Guarantee Purchase Process for Section 7(a) Loans at the National Guaranty
     Purchase Center, May 8, 2007; OIG Report 8-18, Audit of Six SBA Guaranteed Loans, September 8, 2008; OIG
     Report 9-16, The Small Business Administration's Fiscal Year 2008 Improper Payment Rate for the 7(a) Guaranty
     Loan Program, July 10, 2009; and OIG Report 9-18, SBA 's Management of the Backlog ofPost-Purchase Reviews
     at the National Guaranty Purchase Center, August 25, 2009.
4	   OIG ROM 10-03, Notice ofFinding and Recommendation on Recovery Act Loans Involving Change of Ownership
     Transactions, December 2, 2009; OIG ROM 10-05, Notice ofFinding and Recommendation on Recovery Act Loans
     Disbursed Without the Required Borrower Immigration Certifications, December 10,2009; OIG ROM 10-11, Notice
     of Finding and Recommendation on Ineligible Lender-Approved Recovery Act Loans, January 22, 2010; and OIG
     ROM 10-12, Notice ofFinding and Recommendation on Material Origination and Closing Deficiencies Identified in
     SBA and Lender-Approved Recovery Act Loans, March 31, 2010.
                                                                                   3


RESULTS IN BRIEF

The audit identified material deficiencies in 32, or 82 percent, of the 39 early­
defaulted or early-problem Recovery Act loans reviewed, which resulted in the
disbursement of approximately $5 million to borrowers who could not repay or
were ineligible for the loans. Twenty of these loans were made by two lenders
that used credit scoring matrices that did not comply with SBA requirements. One
of the lenders no longer makes SBA loans, while the other lender, who is still
active, was responsible for 18 of the 20 loans. Another 12 loans had repayment
ability, equity injection, and/or eligibility deficiencies. We believe that these
material deficiencies caused or contributed to the early loan defaults or loan
problems. Issuance of these loans that should not have been made prevented other
eligible borrowers from receiving Recovery Act loans. As of June 11, 2010, SBA
purchased its guaranteed share on 25 of the 32 loans resulting in an SBA loss of
$375,259.

In addition to the material deficiencies identified above, our audit also determined
that lenders made disbursements without the (1) required immigration
certifications, (2) restricted use certifications, and/or (3) Forms 159, Fee
Disclosure Form and Compensation Agreement, on 28 Recovery Act loans,
including 24 of the loans identified above with material deficiencies. Eleven loans
with missing immigration certifications were purchased at the higher 90-percent
Recovery Act guaranty amount, resulting in a $7,025 loss to SBA. While 10 of
these loans also had material deficiencies for which the SBA loss is already being
questioned, for one loan, the only deficiency identified was a missing immigration
certification. As a result, SBA should obtain the certification for this loan or
recover $3,248 from the lender. Finally, our audit identified suspicious activity in
10 loans, which have been referred to our Investigations Division for further
reVIew.

In order to address the loan deficiencies, we recommended that SBA: (1)
reexamine the credit scoring matrix used by 1 lender that made 18 of the 32 loans
with material deficiencies to ensure it complies with SBA requirements; (2)
implement a process for providing feedback to SBA employees and lenders when
deficiencies are identified; (3) require the lenders to bring the 25 purchased loans
with material deficiencies into compliance or recover the $375,259 in SBA
guaranties paid; (4) obtain the certification for the loan missing only an
immigration certification, or recover $3,248; and (5) flag the other loans that have
not yet been purchased to ensure the loan deficiencies are properly addressed at
the time of purchase review.

SBA either agreed or proposed actions that were responsive to all of the
recommendations.
                                                                                                                             4


  RESULTS

  Material Noncompliance May Have Caused or Contributed to Early
  Problems, Early Defaults, and Unnecessary SBA Losses

  Material origination and closing deficiencies were identified in 32 of the 39
  Recovery Act loans reviewed, which were approved for $5.5 million. As of
  June 11,2010,25 of the loans had been purchased by SBA for $375,259. As
  shown in Table 1 below, 32 loans had creditworthiness/repayment ability and/or
  equity injection deficiencies. Three of the loans also had eligibility issues. We
  believe these material deficiencies caused or contributed to the early loan defaults
  or early problems. To prevent similar instances of noncompliance, SBA should
  implement a process for providing feedback to SBA employees and lenders when
  deficiencies are identified. A listing of loans with material deficiencies is
  provided in Appendix III and a summary of deficiencies by loan is provided in
  Appendix IV.
                                 Table 1. Material Deficiencies Noted in 32 Loans

                    Number of                                                          Loan
                     deficient                                    Number of         approval         Number of      SBAloss
   Deficiency
                     loans in     Description of Deficiency       loans with        amounts             loans      allocated to
     Type
                    sample of                                    deficiencies *    allocated to      purchased*   deficiencies * *
                       39*                                                        deficiencies * *
                                 Credit scoring matrices did
                                 not reasonably ensure
                                 repayment                                  20          $230,000             20         $202,344
                                 Reliance on old financial
                                 information                                 2           $75,000              1           $12,385
                                 Cash flow not calculated in
                                 accordance with SBA
Creditworthiness/                requirements or prudent
                       30        lending standards                           4       $2,709,650               0                  $0
Repayment Ability
                                 Unsupported projections
                                                                             1           $50,000              0                  $0
                                 Credit decision based on
                                 personal credit rather than
                                 business credit as required                 1           $10,000              1            $5,037
                                 Lender used global cash flow
                                 in violation of internal loan
                                 policies                                    2          $225,000              2           $94,348
                                 Lender did not obtain proper
                                 documentation to verify the
 Equity Injection       2
                                 injection prior to disbursing
                                 the loan as required                        2          $824,172              0                  $0
                                 Affiliation not considered in
                                 determining eligibility as
                                 required                                    1       $1,002,778               0                  $0
    Eligibility         3        No required business
                                 valuation                                   2          $220,000              1                  $0
                                 Seller did not relinquish
                                 100% control as required                    1          $120,500              1           $61,145
    TOTALS             32                                                   32       $5,467,100              25         $375,259
Source: Lender and SBA loan files
* Some loans had multiple deficiencies. 

**Dollar values are allocated to each deficiency and do not overlap. 

                                                                                                5


CreditworthinesslRepayment Ability

Our audit identified 30 loans approved for approximately $3.6 million for which
lenders and SBA did not properly assess creditworthiness/repayment ability.
13 CFR § 120.150 states that the applicant must be creditworthy, and loans must be
so sound as to reasonably assure repayment. Standard Operating Procedure (SOP)
50 10 requires lenders to analyze each application in a commercially reasonable
manner, consistent with prudent lending standards. If a lender's financial analysis
demonstrates that the applicant lacks reasonable repayment ability from the cash
flow of the business, the loan request must be declined.

Credit Scoring Matrices

Twenty of the 30 loans were made by 2 lenders that used credit scoring matrices
that did not comply with SBA requirements. Eighteen of the loans were attributed
to an existing lender, and the remaining loans were made by a lender that no
longer makes SBA loans. SBA policy allows the use of business scoring models
that reasonably ensure repayment and have been validated as being predictive of
loan performance. The scoring matrices used by the two lenders were primarily
based on personal information (including home ownership and personal credit
reports), and limited business factors (such as business income and age of
business), which were not verified. Furthermore, lenders used these matrices to
determine the size of the loans to approve for individual borrowers, which resulted
in borrowers receiving smaller loans than were requested for 11 of the 20 loans.
We also identified borrowers that were approved for loans even though they did
not meet the matrix criteria. A recent OIG audit of the Community Express Pilot
Program found similar occurrences in approximately half of the loans reviewed. 5
Borrowers made minimal payments on these loans and as a result, they defaulted
and ultimately were purchased by SBA for $202,344, or 98 percent of the original
SBA guaranty amount.

A July 31, 2009 Safety and Soundness Review of one of the two lenders identified
[FOIA ex. 8]                               An SBA official also informed us that
the lender's scoring matrix had not been validated for its predictability as required
by SBA. Additionally, the lender had a high early-default rate. For example, as of
May 31,2010, the lender had made 7 percent of all Recovery Act loans, yet its
loans comprised 29 percent of all Recovery Act loans transferred to liquidation.
Furthermore, as of the same date, the lender had made 50 percent of all
Community and Patriot Express Recovery Act loans, yet it was responsible for 65
percent of all Community and Patriot Express Recovery Act loans transferred to
liquidation.

5   OIG Report 10-12, Assessment ofthe Community Express Pilot Loan Program, August 25, 2010.
                                                                                   6


Repayment Ability

We also found that 10 loans did not have adequate repayment ability due to
reliance on old financial information, incorrect cash flow computations,
unsupported projections, and reliance solely on personal credit. The following
examples illustrate deficiencies identified in these 10 loans:

   •   Lenders relied on old financial information to conduct credit analyses.

          y 	 One lender used 2007 personal income of $443,11 0 for a loan
              approved on April 13, 2009, even though the borrower noted annual
              income of only $750 on its April 1, 2009 loan application.

          y 	 Another lender approved a loan in April 2009 based on a credit
              analysis performed on the borrower 8 months earlier, although
              current financial information showed a business loss of $67,278 and
              a business net worth of negative $91,200. The credit analysis was
              based on projections instead of actual data because the lender
              considered the borrower to be a "new business." However, the
              borrower had been in business for more than 2 years and new
              financial information was available. Furthermore, the lender made
              the loan with the knowledge that the borrower had not made
              substantial revenue during its time in business.

   • 	 Cash flow was miscalculated due to inappropriate adjustments and 

       excluded expenses. 


          y 	 Although SBA requires repayment ability to be supported from the
              cash flow of the business, one lender inappropriately added back
              $209,000 of personal income and a partner's $29,000 guaranteed
              payment without explanation. When these items were removed from
              the cash flow computation, the business did not demonstrate
              repayment ability.

          y 	 For another loan, SBA did not take into consideration approximately
              $16,800 of expenses when computing cash flow. When all
              applicable expenses were used, the debt service coverage was 0.59,
              indicating the borrower lacked repayment ability.

   • 	 Lenders did not use the actual cash flow method when appropriate.

          y 	 For one loan approved for $976,000, a CPA-prepared statement of
              cash flow included in the lender's loan file demonstrated that the
                                                                                                                      7


                     borrower had a cash flow of $24,350, which was insufficient to
                     cover its debt obligations. Instead of using the prepared statement,
                     the lender calculated repayment ability using the rule of thumb
                     method,6 which resulted in a cash flow estimate that was $402,650
                     higher than reflected in the CPA's statement. While using the rule
                     of thumb method met SBA requirements in place at the time the loan
                     was made, it was imprudent to ignore a professionally prepared
                     statement and rely solely on a self-prepared rule of thumb
                     computation to support loan approval.

Equity Injection

Our audit disclosed that lenders made two loans without verifying that the required
borrower equity was injected into the business. SOP 50 10 states that lenders must
verify the equity injection prior to disbursing loan proceeds. Verification of a cash
injection requires documentation, such as a copy of a check along with evidence,
such as a recent bank statement, showing that the funds were deposited into the
borrower's account, or a copy of an escrow settlement statement accompanied by
a bank account statement showing that injection into the business was made prior
to disbursement. However, as support for $713,000 in equity injection, one lender
provided an invoice dated 11 days after loan disbursement showing a deposit was
made for the equipment to be purchased with loan proceeds. Furthermore, there
was no processed check or bank statement to prove the deposit was actually made,
and evidence in the loan file showed the equipment vendor was a partial owner of
the business, which posed a conflict of interest between the two parties.

Eligibility

We also found that lenders and SBA did not ensure that borrowers on three loans
met SBA's eligibility requirements regarding affiliation, business valuation, and
seller control. For example, one loan was approved for $120,500 even though the
seller did not relinquish control of the business as required. This resulted in
business failure, loan default, and a $61,145 loss to SBA.

OTHER MATTERS

Noncompliance With Recovery Act Documentation Requirements

Our audit identified that lenders did not comply with Recovery Act documentation
requirements on 18 loans, 14 of which also had material deficiencies. Under the


6	   The traditional "rule ofthumb" method of determining cash flow for the repayment of an SBA loan is to add non­
     cash expenses, such as depreciation and amortization, to the fInn's net profIt.
                                                                                                                  8


Recovery Act, a guaranty cannot be made for a loan to any entity that hired,
recruited or referred for a fee, an unauthorized alien for employment. To
implement this requirement, SBA issued Policy Notice 5000-1098,
Implementation o/Section 502 o/the Recovery Act - Up to a 90 Percent Guaranty
on 7(a) Loans, which requires lenders to obtain certifications from borrowers.
However, we determined that lenders did not obtain immigration certifications for
16 of the 18 loans that were required to have them. Eleven loans with missing
immigration certifications were purchased at the higher 90-percent Recovery Act
guaranty amount, 7 resulting in a $7,025 loss to SBA. While 10 of these loans also
had material deficiencies for which the SBA loss is already being questioned, for
one loan, the only deficiency identified was a missing immigration certification.
As a result, SBA should obtain the certification for this loan or recover $3,248
from the lender. The remaining four loans have not yet been purchased.

We also found that lenders did not obtain restricted use certifications for the two
Recovery Act loans required to have them. Under Section 1604 of the Recovery
Act, appropriated funds cannot be used by any State or local government or any
private entity for a casino or other gambling establishment, aquarium, zoo, golf
course, or swimming pool. To implement this requirement, SBA issued Policy
Notice 5000-1105, Recovery Act-Restricted Uses o/Funds, which requires lenders
to have the borrower and operating company certify prior to the first disbursement
that working capital loan proceeds will not be used for any prohibited use. These
two loans have not yet been purchased by SBA.

Recovery Act Loans Were Disbursed Without the Required Form 159

We identified 21 loans for which it appeared lenders had charged packaging fees,
without obtaining the required Form 159, Fee Disclosure Form and Compensation
Agreement. SBA requires completion of a Form 159 if a packager or referral
agent has been used or the lender has charged a fee associated with the
application. Furthermore, if a lender has paid a referral fee in connection with an
SBAExpress loan, the lender must complete a Form 159. The form is important as
it documents the lender's certification that: (1) the services rendered and amounts
charged are reasonable and satisfactory; (2) they have no knowledge that any other
agent was engaged by, represented, or worked on behalf of the applicant other
than in another executed compensation agreement; and (3) referral fees were not
charged directly or indirectly to the applicant.




7   The 11 loans were purchased prior to changes SBA made to its purchase process in response to a previous OIG
    Recovery Oversight Memorandum, ROM 10-05, Recovery Act Loans Disbursed Without the Required Immigration
    Certifications, December 10,2009.
                                                                                    9


Suspicious Activity Was Identified in Recovery Act Loans

We identified suspicious activity in 10 of the 39 loans we reviewed. These loans
have been referred to the OIG Investigations Division.

RECOMMENDATIONS

We recommend that the Associate Administrator for Capital Access:

   1. 	 Reexamine the credit scoring matrix used by 1 lender that made 18 of the
        32 loans with material deficiencies to ensure it complies with SBA
        requirements.

   2. 	 Implement a process for providing feedback to SBA employees and lenders
        when deficiencies are identified.

   3. 	 For the 25 purchased loans with material deficiencies, require the lenders to
        bring the loans into compliance or recover the $375,259 in guaranties paid.

   4. 	 Obtain the certification for the loan missing only an immigration 

        certification, or recover $3,248 from the lender. 


   5. 	 Flag the other loans that have not yet been purchased to ensure the loan
        deficiencies are properly addressed at the time of the purchase review.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On August 13,2010, we provided a draft of the report to SBA for comment. On
September 17,2010, SBA provided written comments, which are contained in
their entirety in Appendix V. SBA either agreed or proposed actions that were
responsive to all five recommendations.

Recommendation 1

SBA agreed to reexamine the credit scoring matrix used by the one lender to
ensure it complies with SBA requirements. This comment was responsive to
recommendation 1.
Recommendation 2

SBA agreed that providing feedback to SBA employees and lenders when
deficiencies are identified is an important internal control and stated that the
                                                                                   10


Quality Assurance Guide being developed includes a feedback and training
component for SBA employees. SBA will also evaluate its practices with regard
to lenders and will make appropriate adjustments. SBA's comments were
responsive to recommendation 2.

Recommendation 3

SBA stated it will review the 25 purchased loans with identified deficiencies and
will take appropriate action. This comment was responsive to recommendation 3.

Recommendation 4

Management stated it will review the loan missing only an immigration
certification and will take appropriate action. This comment was responsive to
recommendation 4.

Recommendation 5

SBA agreed to flag the loans that have not yet been purchased to ensure the loan
deficiencies are properly addressed during purchase review if the loans default.
SBA's proposed action was responsive to recommendation 5.

ACTIONS REQUIRED

Please provide your management response for each recommendation on the
attached SBA Forms 1824, Recommendation Action Sheet, within 30 days from
the date of this report. Your responses should identify the specific actions taken or
planned to fully address each recommendation and the target dates for completion.

We appreciate the courtesies and cooperation of the Office of Capital Access. If
                   .
you have any questIOns concemmg. th·IS report, pease
                                                1    ca11 me at (
                                                                202) 205-[FOIAex.2]
                                                                                 or
Debra Mayer, Director, Recovery Oversight Group, at (202) 205- [FOIAex. 2]
                                                                                 11


APPENDIX I. SAMPLING METHODOLOGY

The universe consisted of 65 Recovery Act loans that had been purchased by SBA
or placed in liquidation status by lenders as of December 31, 2009. From this
universe, we selected a judgmental sample of 39 loans. This included the 27 loans
that had been purchased by SBA, the majority of which were Community Express
and Patriot Express loans; the 4 largest loans based on gross approval amount; and
8 other loans that were selected based on various judgmental factors. Specifically,
we selected one Preferred Lenders Program (PLP) loan that was transferred to
liquidation within 2 months after loan approval, two additional loans (one Regular
7(a) and one PLP) due to the limited representation of these loan types in the
universe, two SBAExpress companion loans approved on the same date, and three
Patriot Express loans to compare to the other defaulted Patriot Express loans made
by different lenders. Of the 39 sampled loans, 15 were Community Express, 8
were Patriot Express, 7 were SBAExpress, 6 were PLP, and 3 were Regular 7(a).
                                                                                                                                   12


APPENDIX II. SAMPLED LOANS

                                                                    Deficiency
                                                                       Type          Approved       Deficiency        Questioned
   #       Loan Number   I   Loan Name            Loan Type        (See Legend)       Amount        Amount*            Cost**

     1                                         SBAExpress                A            $25,000        $12,500            $12,385
r--­
                                               Patriot Express         A,D            $50,000        $45,000              $0
r---1­
~                                              PLP                       0           $100,000         $5,000            $3,248

    4                                          Regular 7(a)           A,B,D          $220,000        $198,000             $0
r--­
  5                                            PLP                       A          $1,345,000      $1,008,750            $0
r--­
    6                                          SBAExpress                A            $75,000        $37,500            $38,147
r--­
                                               SBAExpress
r-2­                                                                     A           $150,000        $75,000            $56,201
    8                                          PLP                    A,C,D          $976,000        $878,400             $0
r--­

    9                                          SBAExpress                B           $120,500        $60,250            $61,145
r--­
                                               Community
r---!-Q­                                       Express                 A,D            $5,000          $4,250            $4,232
                                               Patriot Express         A,D            $5,000          $4,500            $4,476
r--1-!­
~                                              Patriot Express         A,D            $5,000          $4,500            $4,498
                                               Community
 13                                            Express                 A,D            $5,000          $4,500            $4,622
r--­
                                               Community
   14                                          Express                 A,D            $5,000          $4,500            $4,631
r--­               [FOIA ex. 4]                Patriot Express
~                                              Community
                                                                       A,D            $7,500          $6,375            $6,516

~                                              Express                 A,D            $7,500          $6,750            $6,770
                                               Community
   17                                          Express                 A,D            $7,500          $6,750            $6,853
r--­
 18                                            Patriot Express         A,D            $10,000         $8,500            $8,445
r--­
                                               Community
~                                              Express
                                               Community
                                                                       A,D            $10,000         $8,500            $8,505


~                                              Express                 A,D            $10,000         $9,000            $9,149
                                               Community
  21                                           Express                 A,D            $10,000         $9,000            $9,245
r--­
                                               Community
  22                                           Express                 A,D            $10,000         $9,000            $9,294
r--­
                                               Community
~                                              Express
                                               Community
                                                                       A,D            $12,500        $10,625            $10,869


~                                              Express                 A,D            $12,500        $10,625            $11,114
                                               Community
~                                              Express
                                               Community
                                                                       A,D            $12,500        $11,250            $11,556


~                                              Express                 A,D            $20,000        $17,000            $17,328
                                               Patriot Express         A,D            $25,000        $21,250            $21,838
c-1J­
  28                                           Patriot Express           0            $50,000         $2,500              $0
r--­

~                                              Patriot Express
                                               Community
                                                                         0            $85,800         $4,290              $0

  30                                           Express                 A,D            $25,000        $21,250            $21,165
* Deficiency amount for those loans with material deficiencies (A, B, C) was calculated as the SBA guaranty share of the loan approval
  amount. Deficiency amount for those loans with documentation deficiencies (D) only was calculated as the difference between the SBA
  guaranty share at the higher Recovery rate and the regular SBA guaranty share for the loan type.
**Questioned cost (with interest) does not include adjustments for recoveries received 	or expenses such as legal fees incurred after
  purchase.
                                                                                                                                       13

                                                                        Deficiency
                                                                           Type          Approved       Deficiency        Questioned
     #    Loan Number    I      Loan Name            Loan Type         (See Legend)       Amount        Amount*            Cost**
                                                   Community
-
     31                                            Express                 A,D            $25,000        $21,250            $21,238

-
     32                                            SBAExpress                -            $30,000           $0                $0

-
  33                                               SBAExpress                -            $10,000           $0                $0

~                                                  SBAExpress                A            $10,000         $5,000            $5,037
                  [FOIA ex. 4]
~                                                  Regular 7(a)             B,C         $1,715,600      $1,286,700            $0


~                                                  PLP                     A,D            $50,000        $45,000              $0

~                                                  PLP                       A           $500,000        $375,000             $0

-
  38                                               Regular 7(a)              0           $980,000        $147,000             $0
  39                                               PLP                       -            $50,000           $0                $0
              Totals     I                                                              $6,772,900      $4,385,265         $378,507
    * Deficiency amount for those loans with material deficiencies (A, B, C) was calculated as the SBA guaranty share of the loan approval
  amount. Deficiency amount for those loans with documentation deficiencies (D) only was calculated as the difference between the SBA
  guaranty share at the higher Recovery rate and the regular SBA guaranty share for the loan type.
**Questioned cost (with interest) does not include adjustments for recoveries received 	or expenses such as legal fees incurred after
  purchase.

          Deficiency Type Legend:

               A. CreditworthinesslRepayment Ability
               B. Eligibility
               C. Equity Injection
               D. Documentation Deficiencies
                                                                                                                                   14


APPENDIX III. LOANS WITH MATERIAL DEFICIENCIES

                                                                    Deficiency
                                                                       Type          Approved       Deficiency        Questioned
   #        Loan Number   I   Loan Name           Loan Type        (See Legend)       Amount        Amount*            Cost**

                                               SBAExpress                A            $25,000        $12,500            $12,385
c------!­
    2                                          Patriot Express         A,D            $50,000        $45,000              $0
I--­

    3                                          Regular 7(a)           A,B,D          $220,000        $198,000             $0
I--­

r----±­                                        PLP                       A          $1,345,000      $1,008,750            $0

                                               SBAExpress
~                                                                        A            $75,000        $37,500            $38,147

                                               SBAExpress
~                                                                        A           $150,000        $75,000            $56,201
                                               PLP                    A,C,D          $976,000        $878,400             $0
r---Z­
                                               SBAExpress
~                                              Community
                                                                         B           $120,500        $60,250            $61,145


~                                              Express                 A,D            $5,000          $4,250            $4,232

~                                              Patriot Express          A,D           $5,000          $4,500            $4,476

   11                                          Patriot Express         A,D            $5,000          $4,500            $4,498
I--­
                                               Community
~                                              Express
                                               Community
                                                                       A,D            $5,000          $4,500            $4,622

                  [FOIA ex. 4]
~                                              Express                 A,D            $5,000          $4,500            $4,631
                                               Patriot Express
~                                                                      A,D            $7,500          $6,375            $6,516
                                               Community
   15                                          Express                 A,D            $7,500          $6,750            $6,770
I--­
                                               Community
                                               Express
~                                                                       A,D           $7,500          $6,750            $6,853
                                               Patriot Express         A,D            $10,000         $8,500            $8,445
c---!l­                                        Community
~                                              Express                 A,D            $10,000         $8,500            $8,505
                                               Community
   19                                          Express                 A,D            $10,000         $9,000            $9,149
I--­
                                               Community
~                                              Express
                                               Community
                                                                       A,D            $10,000         $9,000            $9,245

                                               Express                 A,D            $10,000         $9,000            $9,294
2!­                                            Community
r--E­                                          Express
                                               Community
                                                                       A,D            $12,500        $10,625            $10,869

  23                                           Express                 A,D            $12,500        $10,625            $11,114
I--­
                                               Community
                                               Express
~                                                                      A,D            $12,500        $11,250            $11,556
                                               Community
~                                              Express                 A,D            $20,000        $17,000            $17,328
  26                                           Patriot Express         A,D            $25,000        $21,250            $21,838
I--­
                                               Community
  27                                           Express                 A,D            $25,000        $21,250            $21,165
* Deficiency amount for those loans with material deficiencies (A, B, C) was calculated as the SBA guaranty share of the loan approval
  amount. Deficiency amount for those loans with documentation deficiencies (D) only was calculated as the difference between the SBA
  guaranty share at the higher Recovery rate and the regular SBA guaranty share for the loan type.
**Questioned cost (with interest) does not include adjustments for recoveries received 	or expenses such as legal fees incurred after
  purchase.
                                                                                                                                   15

                                                                    Deficiency
                                                                       Type          Approved       Deficiency        Questioned
    #    Loan Number   I    Loan Name            Loan Type         (See Legend)       Amount        Amount*             Cost**
                                               Community
-
    28                                         Express                 A,D            $25,000        $21,250            $21,238

-
  29                                           SBAExpress                A            $10,000         $5,000            $5,037

-
    30          [FOIA ex. 4]                   Regular 7(a)             B,C         $1,715,600      $1,286,700            $0


~                                              PLP                     A,D            $50,000        $45,000              $0

    32                                         PLP                       A           $500,000        $375,000             $0
            Totals     I                                                            $5,467,100      $4,226,475         $375,259
* Deficiency amount for those loans with material deficiencies (A, B, C) was calculated as the SBA guaranty share of the loan approval
  amount. Deficiency amount for those loans with documentation deficiencies (D) only was calculated as the difference between the SBA
  guaranty share at the higher Recovery rate and the regular SBA guaranty share for the loan type.
**Questioned cost (with interest) does not include adjustments for recoveries received or expenses such as legal fees incurred after
  purchase.

         Deficiency Type Legend:

              A. CreditworthinesslRepayment Ability
              B. Eligibility
              C. Equity Injection
              D. Documentation Deficiencies
                                                                                16


APPENDIX IV. SUMMARY OF MATERIAL DEFICIENCIES

[FOIA ex. 4]                                    Loan Number [FOIA ex. 4]

The lender utilized a credit scoring model that considered the borrower's debt
service coverage. While the borrower indicated on his April 1, 2009, loan
application that his personal gross annual income was $750, the lender used the
borrower's 2007 personal annual income in the amount of $443, 110 to calculate
debt service coverage. The lender verified the 2007 income using a W-2 and the
2007 1040 personal tax return, but did not obtain or verify the borrower's 2008
income, which clearly would have been known and available at the time the loan
was approved.

[FOIA ex. 4]                                    Loan Number [FOIA ex. 4]

Despite having IRS tax transcripts for 2008 showing a business loss of $67,278
and calculating a business net worth of ($91,200), the lender approved this loan in
April 2009 using a credit analysis made 8 months earlier for prior SBA loans made
to the borrower. Notes in the lender's credit analysis model claimed that this was
a "new business" and the credit determination was based on projections. The
credit memo showed, however, that the business was established in February
2007. Furthermore, the lender made the loan with the knowledge that the
borrower had not made substantial revenue during its time in business. There may
also be a lender preference issue on this loan as the lender's previous SBA loans
were made at a lower SBA guaranty percentage and working capital from this loan
may have been used to pay down those loans.

[FOIA ex. 4]                                     Loan Number [FOIA ex. 4]

A business valuation was not completed for this change of ownership transaction.
Further, the cash flow was not calculated properly as it did not include all
applicable expenses, and the lender did not obtain IRS tax transcripts to support
the financial statements used to calculate repayment ability.

[FOIA ex. 4]                                    Loan Number [FOIA ex. 4]

The lender did not compute repayment ability correctly. Although SBA requires
repayment ability to be supported from the cash flow of the business, one lender
inappropriately added back $209,000 of personal income and a partner's $29,000
guaranteed payment without explanation. When these items were removed from
the cash flow computation, the business did not demonstrate repayment ability.
                                                                                     17


[FOIA ex. 4] 	                                   Loan Number [FOIA ex. 4]
                                                 Loan Number [FOIA ex. 4]

The lender used global cash flow to calculate repayment ability, which is in
violation of its internal loan policy. The business' cash flow alone did not cover
the debt service. Furthermore, the lender did not obtain IRS tax transcripts to
support the financial information used to calculate repayment ability.

[FOIA ex. 4] 	                                   Loan Number [FOIA ex. 4]

A CPA-prepared statement of cash flow included in the lender's loan file
demonstrated that the borrower did not have repayment ability for this $976,000
loan. It appears that the lender ignored the CPA-prepared statement and instead
calculated repayment ability using the rule of thumb method. While using the rule
of thumb method met SBA requirements in place at the time the loan was made, it
was imprudent to ignore a professionally prepared statement and rely solely on a
self-prepared rule of thumb computation to support loan approval.

As support for the required $111,350 equity injection, the lender provided checks
that were processed approximately 1 year before the March 27, 2009 loan
approval as well as a settlement statement, which was not accompanied by a bank
account statement showing the injection into the business.

[FOIA ex. 4] 	                                   Loan Number [FOIA ex. 4]

The seller did not relinquish control, and the lender did not obtain a business
valuation for this change of ownership transaction. Per the sales contract, the
purchase would not take effect until the liquor license was transferred from the
seller to the buyer. The liquor license, however, was never transferred and
instead, the borrower and seller established a "management agreement" under
which the seller agreed to transfer the license at an unknown point in the future.
Furthermore, the management agreement designated the borrower as an
"independent contractor" rather than a buyer and designated all business income as
a "management fee" payable to the borrower. The seller's control over the
business was demonstrated when the seller shut down the business over a personal
disagreement with the borrower.

[FOIA ex. 4] 	                                   Loan Number [FOIA ex. 4]

The lender approved this SBAExpress loan based on the borrower's personal
credit history and its personal relationship with the bank. The lender did not
calculate the cash flow of the business or use a business scoring model consistent
with its internal loan policies to determine repayment ability as required by SBA.
                                                                                   18


The lender's policies for SBAExpress loans states that it will take into
consideration the business' financial statements and calculate historical cash flow
coverage.

[FOIA ex. 4]                                      Loan Number [FOIA ex. 4]

The loan authorization required a $713,000 cash injection prior to loan
disbursement. As evidence for this equity injection, the lender provided an
invoice dated 11 days after loan disbursement showing a deposit was made for the
equipment to be purchased with loan proceeds. Furthermore, there was no
processed check, wire confirmation, or bank statement to prove the deposit was
actually made, and evidence in the loan file showed the equipment vendor was a
partial owner of the business. Based on the relationship between the borrower and
the equipment vendor to whom loan proceeds were to be disbursed, it appears this
$1,715,600 loan never should have been made.

[FOIA ex. 4]                                      Loan Number [FOIA ex. 4]

The lender based repayment ability on unsubstantiated cash flow projections. The
lender did not provide support for its cash flow projections and acknowledged that
the projections had been inaccurate at the time the loan was approved.
Furthermore, the lender claimed that the projections would be validated "when the
economy improves" and noted that no improvement had taken place so far.
Because the lender did not provide an estimation of when improvement might
occur, it is unclear how it considered the borrower to have repayment ability and
justified loan approval.

[FOIA ex. 4]                                      Loan Number [FOIA ex. 4]

F or its credit analysis, the lender prepared both actual cash flow and rule of thumb
statements. The actual cash flow statement clearly reflected the borrower's
inability to repay the loan. Nevertheless, the lender approved the loan relying on
the rule of thumb cash flow method for which some of the relied-upon figures
could not be verified. Based on financial statements provided in the file for the 9
months ending September 30,2008, we annualized the figures and calculated debt
service coverage of 0.92. Therefore, based on our calculation and the actual cash
flow statement in the file, the borrower did not have repayment ability.

We also found that the lender did not consider an affiliate of the borrower in its
cash flow computations. A detailed income statement for its affiliate showed a net
operating loss of $100,000 and an adjustment to retained earnings of ($385,000)
for the 9 months ending September 30, 2008, indicating that the affiliate's
financial status would have negatively impacted the borrower's repayment ability.
                                                                                 19


Superior and Innovative Loans

The credit scoring matrices used to approve these loans did not comply with SBA
requirements. They were primarily based on personal information (including
home ownership and personal credit reports), and limited business factors (such as
business income and age of business), which were not verified. Furthermore,
these matrices were used to determine the size of loans the lenders would approve
for individual borrowers. As a result, we determined that 11 of the 20 loans were
smaller than borrowers requested. We also determined that borrowers were
approved for loans even though they did not meet the criteria of the credit scoring
matrices. These 20 loans were purchased by SBA for $202,344 or 98 percent of
the original SBA guaranty amounts.
                                                                                         20


APPENDIX V. AGENCY COMMENTS 





                            u.s. SMALL BUSINESS ADMINISTRATION
                                        WASHINGTON,   DC 20416


                                    MEMORANDUM 


                                   September 17, 2010 




TO:             Debra S. Ritt
                Assistant Inspector General for Auditing

FROM:           Eric R. Zarnikow
                Associate Administrator for Capital Access

SUBJ:           Management Response to OIG Draft Report on Material Deficiencies
                Identified in Early-Defaulted and Early-Problem Recovery Act Loans,
                Project 10502


Thank you for the opportunity to review the subject report. As you know, the Recovery
Act authorized increased guarantee percentages and eliminated fees for 7(a) loans. SBA
is proud of its record of implementing the Recovery Act in a prudent and expeditious
manner in order to support small businesses as part of the economic recovery. We
appreciate the role the Office ofInspector General (OIG) plays in assisting management
in ensuring that these programs are effectively managed. Management's response to the
recommendations included in the draft report is as follows:

   1. 	 Reexamine the credit scoring matrix used by one lender that made 18 ofthe 32
         loans with material deficiencies to ensure it complies with SBA requirements.

      SBA agrees with the recommendation.

   2. 	 Implement a process for providing feedback to SBA employees and lenders
        when deficiencies are identified.

   SBA agrees that providing feedback is an important internal control. Providing
   feedback to SBA employees is an important part of the Office of Capital Access'
   quality assurance program. The Quality Assurance Guide being developed includes a
   feedback and training component for SBA employees. SBA will evaluate its
   practices with regard to lenders and will make appropriate adjustments.
                                                                                        21



   3. 	 For the 25 loans purchased with material deficiencies, require the lenders to
        bring the loans into compliance or recover the $375,259 in guarantees paid.

   SBA will review the 25 loans identified and will take appropriate action.

   4. 	 Obtain the certification for the loan missing only an immigration certification
        or recover $3,248 from the lender.

   SBA will review the subject loan and will take appropriate action.

   5. 	 Flag the other loans that have not yet been purchased to ensure the loan 

        deficiencies are properly addressed at the time ofthe purchase review. 


   SBA agrees with the recommendation and will flag the loans where deficiencies were
   identified for purchase review if the loans default.

Again, thank you for the opportunity to review the draft report. Please let us know if you
need additional information or have any questions regarding our response.
